No. 20-1639

In the Supreme Court of the United States
GEORGE K. YOUNG, JR.,
v.

Petitioner,

STATE OF HAWAII, et al.,
Respondents.
CERTIFICATE OF COMPLIANCE As required by Supreme Court Rule

33.1(h), I certify that the Brief of Amicus Curiae Mountain States Legal
Foundation’s Center to Keep and Bear Arms in Support of Petitioner contains
5,949 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on June 24, 2021.
/s/ Cody J. Wisniewski
Cody J. Wisniewski
Counsel of Record
MOUNTAIN STATES
LEGAL FOUNDATION
2596 South Lewis Way
Lakewood, Colorado 80227
(303) 292-2021
cody@mslegal.org
Attorney for Amicus Curiae

